IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
______
No. ________
JOHN G. STROMING,
Petitioner
v.
UNITED STATES OF AMERICA,
Respondent
________

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________

Tina Schneider
Counsel for Petitioner
44 Exchange Street
Suite 201
Portland, Maine 04101
(207) 871-7930
March 15, 2021

QUESTION PRESENTED
Whether prior convictions for crimes of child molestation can be admitted
into evidence where – because of differences in the age and gender of the
victims – they do not show propensity to commit the particular crime
charged.

-2-

TABLE OF CONTENTS
Page
Question Presented…………………………………………………………..2
Table of Authorities…………………………………………………………4
Opinion Below………………………………………………………………5
Jurisdiction………….……………………………………………………….5
Statutes Involved…………………………………………………………….5
Statement of the Case………………………………………………………..6
Reasons for Granting the Writ………………………………………………9
This case presents an important question of federal law that
has not been, but should be, settled by this Court.……………………9
Prior convictions for crimes of child molestation cannot
be admitted into evidence where – because of differences
in the age and gender of the victims – they do not show
propensity to commit the particular crime charged……………9
Conclusion………………………………………………………………….19

-3-

TABLE OF AUTHORITIES
Cases

Page

Johnson v. Elk Lake Sch. Dist., 283 F.3d 138 (3d Cir. 2002)……………...10
Old Chief v. United States, 519 U.S. 172 (1997)…………………………..15
United States v. Davis, 624 F.3d 508 (2d Cir. 2010)………………………14
United States v. Larson, 112 F.3d 600 (2d Cir. 1997)……………………..12
United States v. Luger, 837 F.3d 870 (8th Cir. 2016)……………………...14
United States v. Schaffer, 851 F.3d 166 (2d Cir.),
cert. denied, 138 S.Ct. 469 (2017)………………………………12, 16
United States v. Spoor, 904 F.3d 141 (2d Cir. 2018),
cert. denied, 139 S.Ct. 931 (2019)…………………………..10, 11, 13
United States v. Stroming, ___ Fed. Appx. ___,
2021 WL 222124 (2d Cir. 2021)……………………………………..5
United States v. Vickers, 708 Fed. Appx. 732 (2d Cir. 2017),
cert. denied, 138 S.Ct. 1342 (2018)…………………………………14
Statutes, Rules and Guidelines
18 U.S.C. §2251…………………………………………………………….6
18 U.S.C. §2252…………………………………………………………….6
18 U.S.C. §2260A…………………………………………………………..6
Fed. R. Evid. 403…………………………………………………………5, 9
Fed. R. Evid. 414(a)………………………………………………5, 9, 10, 11
-4-

Petitioner, John G. Stroming, respectfully prays that a writ of
certiorari issue to review the judgment and opinion of the Second Circuit
Court of Appeals entered in this proceeding on January 22, 2021.
OPINION BELOW
The decision of the Second Circuit, United States v. Stroming, ___
Fed. Appx. ___, 2021 WL 222124 (2d Cir. 2021), appears in the Appendix
hereto.
JURISDICTION
The judgment of the Second Circuit was entered on January 22, 2021.
This petition was timely filed within 90 days of that date. This Court’s
jurisdiction is invoked under 28 U.S.C. sec. 1254(1).
RULES INVOLVED
Fed. R. Evid. 403:
The court may exclude relevant evidence if its probative value is
substantially outweighed by a danger of one or more of the following:
unfair prejudice, confusing the issues, misleading the jury, undue
delay, wasting time, or needlessly presenting cumulative evidence.
Fed. R. Evid. 414(a):
In a criminal case in which a defendant is accused of child
molestation, the court may admit evidence that the defendant
committed any other child molestation. The evidence may be
considered on any matter to which it is relevant.
-5-

STATEMENT OF THE CASE
Petitioner John G. Stroming [hereinafter “Stroming”] was charged by
superseding indictment with sexual exploitation of a child, in violation of 18
U.S.C. §2251; felony offense involving a minor by a registered sex offender,
in violation of 18 U.S.C. §2260A; and possession of child pornography, in
violation of 18 U.S.C. §2252. The government moved in limine for
admission of evidence of Stroming’s prior convictions for crimes involving
child molestation and the defense moved, in limine, for exclusion of this
evidence. The court ruled that the evidence could come in.
This, in fact, was the very first evidence the government introduced at
trial, before any testimony by witnesses. It introduced certified copies of
Stroming’s prior convictions for child molestation crimes – a 1999
conviction for possession of child pornography, and 2011 convictions for
second degree rape and criminal sexual act. The court then instructed the
jury what the elements of those crimes were under New York State law.
The other evidence at trial was that, in 2008, Stroming was living with
his friend, the friend’s daughter, and the friend’s 19-month-old grandson.
Stroming slept in the living room on a blue couch with an afghan. The
daughter was troubled when she would come out of her room in the morning
-6-

to find Stroming with her son on the couch. She ultimately moved her son
out of his separate room into her room. She never noticed any redness or
marks on her son’s buttocks or rectum, and her son did not appear to be in
any distress. Stroming eventually moved out of that home.
In 2010, Stroming’s niece – who knew the friend’s daughter –
watched a video cassette she purportedly found in his room and took it,
along with a handheld camcorder she also found, to the police. The video
showed, among other things, a man rubbing his penis on a toddler’s buttocks
and what appeared to be semen on the toddler’s back. The niece recognized
the blue couch in the video as the one in her friend’s home, and recognized
the toddler as her friend’s son. The video also contained images of preteens
and younger teens walking down the street in bathing suits, and clips of
children engaged in sexual acts. The police copied that video onto a DVD
and the original was destroyed.
The man’s penis in the video bore a dark birthmark or mole.
Stroming had such a mark on his penis, which the police photographed in
2017. The toddler’s mother and his grandfather both identified the child in
the video, as well as the blue couch and an afghan placed over it. The
grandfather also testified to having seen the mark on Stroming’s penis,
-7-

although he vacillated about whether he had mentioned this fact to anyone
before the trial.
Stroming told the police that he was the man in the video. He said he
shot the video with a small handheld camcorder at his friend’s home. He
denied that the child in the video was his friend’s grandson, asserting that it
was a little girl, not a little boy, because he wasn’t homosexual. Stroming
also made these statements in a letter to his friend.
At the conclusion of the two day trial, the jury convicted Stroming as
charged. Stroming’s motions for a judgment of acquittal under Fed. R.
Crim. P. 29(a), and for a new trial pursuant to Fed. R. Crim. P. 33 (based in
part on the admission of the prior convictions) were denied. The court
imposed a total sentence of 35 years – 25 years (the mandatory minimum)
on the sexual exploitation of a child count, to be followed by a consecutive
ten year sentence (the mandatory minimum) on the felony offense by a
registered sex offender charge, and a ten year concurrent sentence on the
possession of child pornography charge. Stroming currently is serving a
state sentence, and accordingly will not begin serving the 35 year federal
sentence until 2027, when he is 68 years old. The Second Circuit affirmed
the judgment of the district court by Summary Order.
-8-

REASONS FOR GRANTING THE PETITION
This case presents an important question of federal law that has not
been, but should be, settled by this Court.
Prior convictions for crimes of child molestation cannot be admitted into
evidence where – because of differences in the age and gender of the victims
– they do not show propensity to commit the particular crime charged.
Fed. R. Evid. 414(a) provides:
In a criminal case in which a defendant is accused of child
molestation, the court may admit evidence that the defendant
committed any other child molestation. The evidence may be
considered on any matter to which it is relevant.
While evidence that tends to show that a defendant has a propensity to
commit crimes ordinarily is excluded, Rule 414 makes an exception where
past acts of child molestation are introduced in a child molestation case.
However, the court still must find that the evidence is relevant, and that,
pursuant to Rule 403, its probative value is not substantially outweighed by a
danger of unfair prejudice.
The government moved in limine to allow the admission into evidence
of certified copies of Stroming’s prior convictions for possessing an obscene
sexual performance by a child (1999), and rape in the second degree and
criminal sexual act in the second degree (2011). The defense moved in
limine to exclude this evidence.
-9-

The court allowed the government to introduce this evidence. The
court found that the three convictions were all “child molestation” cases. It
concluded that the evidence was probative of Stroming’s “propensity to
commit the charged crimes,” and was not unfairly prejudicial. It reasoned
that the priors were not remote enough to cast doubt on their relevance, and
were not “any worse than the charged conduct so as to inflame the jury.”
The convictions, the court found, were “consistent with a sexual interest in
children and propensity to molest them.”
In allowing the introduction of this evidence, the court abused its
discretion. Although under Rule 414 evidence of other instances of child
molestation is admissible to show a propensity to commit child molestation
crimes, the court must nonetheless still determine whether its probative
value is substantially outweighed by the danger of unfair prejudice. Rule
414 “does not require the district courts to evaluate such evidence with a
‘thumb on the scale in favor of admissibility.’” United States v. Spoor, 904
F.3d 141, 154 (2d Cir. 2018), cert. denied, 139 S.Ct. 931 (2019), quoting
Johnson v. Elk Lake Sch. Dist., 283 F.3d 138, 155-56 (3d Cir. 2002).
The other convictions here were not probative of Stroming’s
propensity to commit the charged crimes. Although the court found that the
-10-

other convictions were relevant because they showed “a sexual interest in
children,” this is necessarily always true whenever Rule 414 comes into
play. The question should be, what did these acts have in common with the
charged conduct, and the answer here is not much, other than the fact that all
of the conduct, proven and alleged, was appalling.
In determining the probative value of prior act evidence, courts should
consider factors such as the similarity of the acts, the closeness in time, the
frequency of the prior acts, whether there were intervening circumstances,
and whether the prior act evidence was necessary “beyond the testimonies
already offered at trial.” Spoor, 904 F.3d at 154 (citation omitted). Using
this rubric, it is clear that Stroming’s prior convictions were not probative of
his propensity to molest a toddler nor to produce pornography by filming
himself.
Stroming’s 2011 convictions for rape and criminal sexual act involved
a teenaged girl. The charges in the instant case involved sexual acts with a
19-month old boy. While both situations involve children, that is the sum
total of the similarities between them. Indeed, it does not appear that there is
a single case from any jurisdiction where a prior act of molestation
perpetrated on a child of a different gender was held probative of propensity.
-11-

Nor does there appear to be any support for the proposition that an act of
molestation perpetrated on a teenager is probative to show propensity to
molest a toddler. The Second Circuit’s conclusion – that the objections to
this propensity evidence amounted to “hairsplitting,” Slip. Op. at 3 – failed
to address the profound differences between the prior and charged offenses.
In other cases where evidence of other child molestation has been
found to meet the Rule 403 standard for admissibility, there have been much
more marked similarities. For example, in United States v. Schaffer, 851
F.3d 166 (2d Cir.), cert. denied, 138 S.Ct. 469 (2017), the past conduct
showed “a pattern of illegal conduct that involved having minor girls visit
him alone and try on swimsuits as a precursor to sexual assault.” Id. at 182.
The fact that the defendant’s prior victims were nine- and 13-year-old girls
made it more likely, not less, that he would have a sexual interest in the 15year-old girl victim. Id. at 183.
Similarly, in United States v. Larson, 112 F.3d 600 (2d Cir. 1997), the
defendant was charged with transporting a minor with the intent to engage in
criminal sexual conduct. The defendant abused the victim from the time the
victim was 13 years old until he was 15 years old, taking the boy to his
cabin, enticing him with the prospect of water-skiing and swimming, plying
-12-

him with liquor, and then sexually abusing the boy. Evidence that the
defendant had abused another boy, from age 12 to 16, was admissible to
show propensity. The Court emphasized that the prior acts “closely
paralleled the events complained of by [the victim], taking place in the same
geographic locations, with [the defendant] using the same enticements for
both boys, plying both with alcohol, and engaging both in similar
progressions of sexual acts.” Id. at 605.
The Spoor Court held that evidence that the defendant had relatively
recently abused boys similar in age to the boys in the pornographic videos at
issue was relevant to show his attraction to boys and his motive to make
pornography. It also connected him to the child pornography found on
his hard drives, which he had denied were his, and relevant as well to show
that the videos were intended to elicit a sexual response in the viewer,
another fact he denied. Spoor, 904 F.3d at 155. Notably, in Spoor, the
government also had sought to introduce evidence that the defendant had
sexually abused two girls in the past, but the district court excluded that
evidence because “the risk of undue prejudice from this evidence
outweighed its marginal probative value.”

-13-

In United States v. Vickers, 708 Fed. Appx. 732 (2d Cir. 2017), cert.
denied, 138 S.Ct. 1342 (2018), the other crimes evidence showed
defendant’s pattern of luring adolescent boys from broken homes into
trusting relationships, and then sexually abusing them. And in United States
v. Davis, 624 F.3d 508 (2d Cir. 2010), the defendant was charged with, inter
alia, sexual exploitation of his four-year-old stepdaughter. His prior
convictions for sexual assault of his 12-year-old daughter and his eight-yearold niece were admissible because probative of his propensity for
victimizing young female relatives.
What is clear from the case law is that “the prior offenses must be
similar enough to the charged offense to be probative of the defendant’s
propensity to commit that specific offense.” United States v. Luger, 837
F.3d 870, 874 (8th Cir. 2016). Stroming’s convictions for sexually
assaulting a teenaged girl are not probative of his propensity to assault a
male toddler. And his conviction, some nine years prior to the acts alleged
here, for possessing child pornography does not make it more likely that he
would film himself sexually assaulting a toddler.
The unfair prejudice from the introduction of this evidence cannot be
overstated. ‘Unfair prejudice’ in this context means “an undue tendency to
-14-

suggest decision on an improper basis, commonly, though not necessarily,
an emotional one.” Old Chief v. United States, 519 U.S. 172, 180
(1997)(citation omitted). Hearing – the very first thing at trial – that
Stroming had done very bad things to children before necessarily made it
more likely that the jury immediately and irrevocably would take against
him.
Over the objection of the defense, the court then read the elements of
those crimes to the jury:
Okay, members of the jury, I’m going to read to you in regard to
Exhibit 1, a copy of a 1999 possession of obscene performance, that is
Exhibit 1, New York State Penal Law, Section 263.11 provides: A
person is guilty of possessing an obscene sexual performance by a
child when, knowing the character and content thereof, he knowingly
has in his possession or control, any obscene performance which
includes sexual conduct by a child less than 16 years of age.
Exhibit 8, New York State Penal Law Section 130.300 -- 130.30(1)
provides: A person is guilty of rape in the second degree when, being
18 years old or more, he or she engages in sexual intercourse with
another person less than 15 years old.
***
In connection with the Government’s Exhibit 8 which I just talked
about, New York Penal Law Section 130.45(1) provides: A person is
guilty of a criminal sexual act in the second degree when, being 18
years old or more, he engages in oral sexual conduct or anal sexual
conduct with another person less than 15 years of age.

-15-

The court did not give any contemporaneous limiting instruction. Cf.
Schaffer, 851 F.3d at 183-84 (“In fact, the district court’s cautionary
instructions to the jury, which it gave both at the time the government
introduced the videos and immediately prior to the commencement of
deliberations, further reduced the risk of unfair prejudice.”)
So before the jury heard one iota of testimony from any witness, it
was told that Stroming had possessed an obscene sexual performance by a
child, had had sexual intercourse with a child, and had engaged in oral or
anal sex with a child. That the child was a girl, and that she was a teenager,
while not making those prior convictions any less stomach-turning, were not
told to the jury.
Indeed, in its charge to the jury at the close of the case, the court
stated that there was “evidence received during the trial that the defendant
engaged in other conduct which was similar in nature to the acts charged in
the indictment.” The court continued:
In a criminal case in which the defendant is accused of sexual
exploitation of a minor and possession of child pornography as
alleged in Counts 1 and 3 of the indictment, evidence of the
defendant’s commission of other – another offense of a similar nature
is admissible and may be considered for its bearing on whether the
defendant committed the offenses for which he is charged in this
indictment.
-16-

Although the court charged that “evidence of another offense on its
own is not sufficient to prove the defendant guilty of the crimes charged in
the indictment,” and that “the defendant is not on trial for any act, conduct,
or offense not charged in this indictment,” this could not undo the unfair
prejudice that resulted from admitting these convictions and from telling the
jury that these were for conduct “similar in nature” to the pending charges.
The government put particular emphasis on Stroming’s prior
convictions in its closing argument:
The defendant had the sexual interest in children necessary to commit
this crime. You heard he was convicted of possessing child
pornography in 1999, and convicted of rape in the second degree and
criminal sex act in the second degree in 2011. Ms. Sullivan, can you
please pull up Government’s Exhibit 1. Government’s Exhibit 1 is a
certified copy of the defendant’s conviction from 1999, and the judge
instructed you that he is convicted of possessing an obscene sexual
performance by a child, which means that he knowingly had in his
possession any obscene performance, which includes sexual conduct
by a child less than 16.
Ms. Sullivan, can you please pull up Government’s Exhibit 8.
Government’s Exhibit 8 is a certified copy of the defendant’s
convictions for rape in the second degree and criminal sex act in the
second degree, which the judge explained means that, being 18 years
old or more, the defendant engaged in sexual intercourse with another
person less than 15, and that, being 18 years old or more, the
defendant engaged in oral or anal sexual contact with a person less
than 15 years old. So he’s possessed child pornography and he’s
raped a child under the age of 15, and here, he just combined them,
and made his own child pornography.
-17-

The government returned to this theme again in its closing argument:
We know he has a sexual interest in children. Part one is the secret
recording of children in public, including the girls you saw in that clip
just walking down the street in their bathing suits. The defendant has
a prior conviction for exactly the same thing. Possessing child
pornography.
In its rebuttal, the government revisited the prior convictions:
We’ve talked about the defendant’s prior convictions and defense
counsel just told you that that’s how we started this case, in an effort
to paint the defendant in a certain way. Well, the judge is going to tell
you that you can consider the defendant’s prior commission of another
offense of a similar nature for its bearing on whether the defendant
committed these offenses. That’s admissible evidence here, that’s
something you can legally consider. That’s something you should
consider, and it’s one of the many things that shows you that this
defendant is guilty.
The fact of the matter is that the prior convictions were not probative
of Stroming’s propensity to molest a 19-month-old boy and film the assault,
because – although broadly all are child molestation offenses – the crimes
were markedly dissimilar, and the unfair prejudice resulting from admission
of this evidence infected the entire trial. This Court should hold that
evidence of a prior child molestation conviction is inadmissible to show
propensity where the victim’s gender is different in the prior and charged
crime, and the age of the victim is substantially different.

-18-

Conclusion
For the foregoing reasons, Petitioner John G. Stroming respectfully
requests that this Petition for Writ of Certiorari be granted.
March 15, 2021

John G. Stroming
By his attorney:
/s/ Tina Schneider
Tina Schneider
44 Exchange Street
Suite 201
Portland, Maine 04101
(207) 871-7930

-19-

